HHS/OIG-Audit--"Group Health Cooperative of Puget Sound, Seattle, Washington, Audit of Medicare Payments in Behalf of Beneficiaries Classified as Institutionalized (A-10-97-00002)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Group Health Cooperative of Puget Sound, Seattle, Washington, Audit Medicare Payments in Behalf of Beneficiaries
Classified as Institutionalized" (A-10-97-00002)
November 26, 1997
Complete
Text of Report is available in PDF format (95 kb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final report concludes that Group Health Cooperative of Puget Sound had adequate controls to ensure that higher (enhanced)
Medicare payments, made in behalf of institutionalized patients, were discontinued when the patients were no longer institutionalized
and the entitlement to the higher payments ended. However, from a random sample of 100 monthly payments, 4 beneficiaries
were found to have been inappropriately classified as institutionalized, resulting in Medicare overpayments totaling $9,769.
We reported a need to reemphasize to Group Health staff the importance of promptly reporting changes in beneficiary status,
and to establish procedures for making retroactive adjustments when such errors were identified by Group Health. We also
recommended a refund of the $9,769.